0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Brief in Opposition in 20-987, Spielbauer
Law Office v. Midland Funding, LLC, Midland Credit
Management, Inc., and Does 1-10, was sent via Two
Day Service to the U.S. Supreme Court, and via Two
Day and e-mail service to the following parties listed
below, this 24th day of February, 2021:
Thomas John Spielbauer
The Spielbauer Law Office
1839 Y gnacio Valley Road
Suite 420
Walnut Creek, CA 94598
(408) 213-7440
thomas@spielba uer .com
Counsel for Petitioner
Thomas F. Landers
Leah S. Strickland
Counsel of Record
Solomon Ward Seidenwurm & Smith LLP
401 B St., Suite 1200
San Diego, California 92102
(619) 231-0303
lstrickland@swsslaw.com
Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on February 24, 2021.

Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

